                     AUDIT REPORT

                       Audit of the Committee to Review
                             Generic Requirements

                        OIG-09-A-06 February 2, 2009




All publicly available OIG reports (including this report) are accessible through
                              NRC’s Web site at:
             http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                               UNITED STATES
                       NUCLEAR REGULATORY COMMISSION
                                WASHINGTON, D.C. 20555-0001



OFFICE OF THE
INSPECTOR GENERAL


                                                   February 2, 2009

MEMORANDUM TO:              R. William Borchardt
                            Executive Director for Operations



FROM:                       Stephen D. Dingbaum /RA/
                            Assistant Inspector General for Audits


SUBJECT:                    AUDIT OF THE COMMITTEE TO REVIEW GENERIC
                            REQUIREMENTS (OIG-09-A-06)


Attached is the Office of the Inspector General’s (OIG) audit report titled, Audit of the
Committee to Review Generic Requirements.

The report presents the results of the subject audit. Agency comments provided at
the January 7, 2009, exit conference were incorporated into this report, as
appropriate.

Please provide information on actions taken or planned on each of the
recommendations within 30 days of the date of this memorandum. Actions taken or
planned are subject to OIG followup as stated in Management Directive 6.1.

We appreciate the cooperation extended to us by members of your staff during the
audit. If you have any questions or comments about our report, please contact me
at 415-5915 or Sherri Miotla, Team Leader, Nuclear Safety Audit Team, at
415-5914.

Attachment: As stated
Electronic Distribution

Edward M. Hackett, Executive Director, Advisory Committee on Reactor
 Safeguards/Advisory Committee on Nuclear Waste and Materials
E. Roy Hawkens, Chief Administrative Judge, Atomic Safety and
 Licensing Board Panel
Karen D. Cyr, General Counsel
John F. Cordes, Jr., Director, Office of Commission Appellate Adjudication
Jim E. Dyer, Chief Financial Officer
Margaret M. Doane, Director, Office of International Programs
Rebecca L. Schmidt, Director, Office of Congressional Affairs
Eliot B. Brenner, Director, Office of Public Affairs
Annette Vietti-Cook, Secretary of the Commission
Bruce S. Mallett, Deputy Executive Director for Reactor
 and Preparedness Programs, OEDO
Martin J. Virgilio, Deputy Executive Director for Materials, Waste, Research,
 State, Tribal, and Compliance Programs, OEDO
Darren B. Ash, Deputy Executive Director for Corporate Management
 and Chief Information Officer, OEDO
Vonna L. Ordaz, Assistant for Operations, OEDO
Timothy F. Hagan, Director, Office of Administration
Cynthia A. Carpenter, Director, Office of Enforcement
Charles L. Miller, Director, Office of Federal and State Materials
  and Environmental Management Programs
Guy P. Caputo, Director, Office of Investigations
Thomas M. Boyce, Director, Office of Information Services
James F. McDermott, Director, Office of Human Resources
Michael R. Johnson, Director, Office of New Reactors
Michael F. Weber, Director, Office of Nuclear Material Safety and Safeguards
Eric J. Leeds, Director, Office of Nuclear Reactor Regulation
Brian W. Sheron, Director, Office of Nuclear Regulatory Research
Corenthis B. Kelley, Director, Office of Small Business and Civil Rights
Roy P. Zimmerman, Director, Office of Nuclear Security and Incident Response
Samuel J. Collins, Regional Administrator, Region I
Luis A. Reyes, Regional Administrator, Region II
James L. Caldwell, Regional Administrator, Region III
Elmo E. Collins, Jr., Regional Administrator, Region IV
                                              Audit of the Committee to Review Generic Requirements 




EXECUTIVE SUMMARY

    BACKGROUND
          The Nuclear Regulatory Commission (NRC) established its Committee to
          Review Generic Requirements (CRGR) to help ensure that generic
          backfits imposed on NRC-licensees are appropriately justified based on
          NRC’s regulations and backfit policy. Simplified, a backfit is a modification
          to a facility, or the procedures or organization required to operate the
          facility, due to a new or amended NRC regulation, rule, or interpretation.
          NRC considers backfitting as an inherent part of its regulatory process.
          According to agency guidance documents, for sound and effective
          regulation it is important that backfitting be conducted by a controlled and
          defined process.
          In October 1981, the presiding NRC Chairman identified a need to better
          control the number and nature of backfit requirements imposed by NRC
          on its licensees. The Chairman further stipulated that a single, central
          point of control at NRC’s highest operating level of management was
          needed, and in November 1981, NRC established the CRGR as its central
          backfit control. The CRGR’s key implementing procedure for conducting
          generic backfit reviews is its Charter. The CRGR’s mission, as identified
          in the Charter, includes ensuring that unintended backfits are not imposed
          or implied by proposed new or revised generic requirements for NRC-
          licensed power reactors and nuclear materials facilities, and that NRC-
          proposed actions are appropriately justified.


    PURPOSE
          The objective of this audit was to determine if the CRGR adds value for
          the Executive Director for Operations’ decisionmaking purposes and
          whether the committee’s function is still needed.


    RESULTS IN BRIEF
          The CRGR no longer functions as originally intended with respect to
          generic backfit reviews. Although NRC must still ensure that generic
          backfits are appropriately justified based on regulations and policy, the
          CRGR no longer performs the central role in this process. This is because
          the agency’s processes have evolved which, in effect, resulted in other
          offices assuming some of the CRGR’s duties. However, the agency has
          not developed overarching, agencywide guidance that describes its
          current backfit review process or reassessed what, if any, role the CRGR
          should play in the current process. As a result, the CRGR does not add

                                         i
                                             Audit of the Committee to Review Generic Requirements 



         its full intended value as originally envisioned for backfit review and
         stakeholders do not fully understand NRC’s backfit review process,
         including the CRGR’s role. Moreover, without reassessing and
         documenting its current internal backfit review process, the agency cannot
         be assured that it is taking consistent or appropriate action with regard to
         backfit reviews and is taking the necessary steps to prevent unnecessary
         regulatory burden on NRC licensees.


    RECOMMENDATIONS
         This report makes two recommendations to the Executive Director for
         Operations. The recommendations appear on page 13 of this report.


    AGENCY COMMENTS
         At a January 7, 2009, exit conference, NRC senior managers, including
         CRGR members, agreed with the report’s finding and recommendations.
         The agency subsequently decided not to provide formal comments. This
         final report incorporates informal comments provided by the agency, as
         appropriate.




                                       ii
                                     Audit of the Committee to Review Generic Requirements 



ABBREVIATIONS AND ACRONYMS


       CFR     Code of Federal Regulations
       CRGR    Committee to Review Generic Requirements
       EDO     Executive Director for Operations
       MD      management directive
       NRC     Nuclear Regulatory Commission
       OGC     Office of the General Counsel
       OIG     Office of the Inspector General
       P&PL    Policy and Procedures Letter




                               iii
                         Audit of the Committee to Review Generic Requirements 




    [Page intentionally left blank.]




                   iv
                                                           Audit of the Committee to Review Generic Requirements 



TABLE OF CONTENTS

        EXECUTIVE SUMMARY ........................................................................ i
        ABBREVIATIONS AND ACRONYMS....................................................iii
        I.    BACKGROUND .............................................................................. 1
        II.   PURPOSE....................................................................................... 3
        III. FINDING ......................................................................................... 4


                    THE CRGR NO LONGER FUNCTIONS AS ORIGINALLY INTENDED..... 5


                    RECOMMENDATIONS ................................................................. 13


        IV. AGENCY COMMENTS ................................................................. 13


        APPENDICES
        A. SCOPE AND METHODOLOGY ..................................................... 15

        B. CRGR EVOLUTIONARY TIMELINE .............................................. 17

        C. EVOLUTION OF AGENCY GENERIC BACKFIT REVIEWS
           TIMELINE....................................................................................... 19




                                                   v
                        Audit of the Committee to Review Generic Requirements 




    [Page intentionally left blank]




                  vi
                                                                       Audit of the Committee to Review Generic Requirements 




I.            BACKGROUND

                             The Nuclear Regulatory Commission (NRC) established its Committee to
                             Review Generic Requirements (CRGR) in 1981 to help ensure that
                             generic backfits1 imposed on NRC-licensed power reactor facilities (and at
                             a later date, certain nuclear materials facilities) were appropriately justified
                             based on NRC’s regulations and backfit policy. Simplified, a backfit is a
                             modification to a facility, or the procedures or organization required to
                             operate the facility, due to a new or amended NRC regulation, rule, or
                             interpretation.2 Backfitting3 is the process by which NRC issues new or
                             revised requirements or staff positions to its licensees. Backfitting is
                             expected to occur and is an inherent part of the regulatory process.
                             NRC implements its backfit policy through multiple parts of Title 10 of the
                             Code of Federal Regulations (CFR).4 The first of these parts is in 10 CFR
                             50.109, commonly known as the “backfit rule.” Other guidance is provided
                             in agency documents, such as NUREG-1409, Backfitting Guidelines. Per
                             NUREG-1409, for sound and effective regulation it is important that
                             backfitting be conducted by a controlled and defined process. NRC’s
                             backfit review process is intended to provide for a systematic, disciplined
                             review of new or changed staff regulatory positions to ensure that changes
                             are justified and suitably defined before they are imposed on NRC
                             licensees. According to NRC guidance, when developing proposals the
                             staff is expected to:

                             •      Assess the merits of emergent generic issues.

                             •      Determine whether a proposed generic action is needed.

                             •      Identify and analyze the consequences of alternative courses of action.

                                                            
1
  Generic backfits apply to two or more nuclear power reactors or applicable materials facilities. Oversight
responsibility for plant-specific backfits, which apply to a single reactor or fuel facility, falls to NRC office directors.

2
 Jay M. Gutierrez and Alex S. Polonsky, Fundamentals of Nuclear Regulation in the United States, Morgan, Lewis &
Bockius LLP, Second Edition, Chapter 5, ”Major Issues Associated With the Operation of Existing Nuclear Power
Plants and the Licensing of Future Plants,” Section 3, “Changes Due to an NRC Backfit Determination,” page 80.
3
  10 CFR 50.109 defines “backfitting” as the modification of, or addition to, systems, structures, or components of a
facility; or to the procedures or organization required to operate a facility; any of which may result from a new or
amended provision in the Commission rules or the imposition of a regulatory staff position interpreting the
Commission rules that is either new or different from a previous NRC staff position.
4
 10 CFR Part 50.109 and Part 52, including 52.39, 52.63, 52.98, 52.145, and 52.171 for nuclear power reactors and
10 CFR Parts 70.76, 72.62, and 76.76 for certain materials facilities as well as the provisions in 10 CFR Part 50.54(f),
and the corresponding requirements in 10 CFR Parts 70, 72, and 76, and 10 CFR Part 2.204.


                                                               1
                                                                      Audit of the Committee to Review Generic Requirements 



                             •      Select a preferred alternative.

                             •      Present a clear and well-documented explanation of why the NRC staff
                                    recommends the particular action.
                             Each proposal should also contain the sponsoring program office's
                             position as to whether the proposal would modify, implement, relax, or
                             reduce existing requirements or staff positions, thereby causing a potential
                             backfit. Upon completion of the staff’s review, all generic action
                             proposals5 must be submitted to the CRGR for review.

                             Commission Identifies Need for Controls

                             In October 1981, the presiding NRC Chairman identified a need to better
                             control the number and nature of requirements that NRC imposes as
                             backfits on its licensees. Specifically, the Chairman cited a need to stop
                             the flow of “conflicting or inconsistent directives and requests” placed on
                             NRC licensees by the staff.6 The Chairman further stipulated that a single,
                             central point of control at NRC’s highest operating level of management
                             was needed to (1) review and coordinate the staff’s communication with
                             licensees, (2) manage and control NRC’s requirements on licensees, and
                             (3) ensure that all requirements issued or amended do, in fact, contribute
                             effectively and significantly to the health and safety of the public. In
                             November 1981, NRC established the CRGR as its central backfit control.

                             CRGR Charter

                             The CRGR’s key implementing procedure for conducting generic backfit
                             reviews is its Charter, which was initially issued in 1982 and last officially
                             revised in 1999. The CRGR’s mission includes ensuring that unintended
                             backfits are not imposed or implied by proposed new or revised generic
                             requirements for NRC-licensed power reactors and nuclear materials
                             facilities, and that NRC-proposed actions are appropriately justified. The
                             Charter documents the committee’s mission, scope of activities, and
                             operating procedures. According to the Charter, each program office
                             proposal will include a determination that the burden to be imposed on the
                             licensees is justified in view of the potential safety significance of the issue
                             to be addressed. Such justification must be based on the backfit
                             provisions of NRC’s regulations, Commission guidance and directives,
                             applicable legislative acts, and Executive Orders.

                                                            
5
 Generic action proposals are staff proposals developed to add or modify NRC regulations that have been identified
as generic in nature.
6
  Memorandum for William Dircks, Executive Director for Operations, from Nunzio J. Palladino, Chairman, subject:
Reactor Requirements and Regional Office Reorganization, dated October 8, 1981. 


                                                               2
                                           Audit of the Committee to Review Generic Requirements 



         CRGR Membership

         According to the 1999 version of the CRGR Charter, committee
         membership includes a Chairman and representatives from various NRC
         offices, as appointed by the Executive Director for Operations (EDO). The
         current CRGR includes senior representatives from the Offices of Nuclear
         Regulatory Research; Nuclear Reactor Regulation; Nuclear Material
         Safety and Safeguards; Nuclear Security and Incident Response; New
         Reactors; and Federal and State Materials and Environmental
         Management Programs. The committee also includes a senior attorney
         from the Office of the General Counsel (OGC) and a rotating senior
         manager from one of NRC’s four regional offices. Because committee
         participation is a collateral duty, NRC’s budget does not include a
         separate allocation for the CRGR. However, the Office of Nuclear
         Regulatory Research currently designates 0.5 full-time equivalent to
         provide technical and administrative support to the CRGR.



II.   PURPOSE

         The purpose of this audit was to determine if the CRGR (1) adds value for
         EDO decisionmaking purposes and (2) function is still needed. This audit
         was initiated in response to NRC Commission interest. Appendix A
         provides additional information regarding the audit’s scope and
         methodology.




                                      3
                                                                   Audit of the Committee to Review Generic Requirements 



III.          FINDING


              The CRGR No Longer Functions As Originally Intended
                             The CRGR no longer functions as originally intended with respect to
                             generic backfit reviews. Although NRC must still ensure that generic
                             backfits are appropriately justified based on regulations and policy, the
                             CRGR no longer performs the central role in this process. This is because
                             the agency’s processes have evolved which, in effect, resulted in other
                             offices assuming some of the CRGR’s duties. However, the agency has
                             not developed overarching, agencywide guidance that describes its
                             current backfit review process or reassessed what, if any, role the CRGR
                             should play in the current process. As a result, the CRGR does not add
                             its full intended value as originally envisioned for backfit review and
                             stakeholders do not fully understand NRC’s backfit review process,
                             including the CRGR’s role. Moreover, without reassessing and
                             documenting its current internal backfit review process, the agency cannot
                             be assured that it is taking consistent or appropriate action with regard to
                             backfit reviews and is taking the necessary steps to prevent unnecessary
                             regulatory burden on NRC licensees.


                             CRGR Was Originally Established To Serve As NRC’s Central
                             Generic Backfit Control Point


                             When established, the CRGR was originally intended to serve as the
                             agency’s central control point and advisor to the EDO and staff regarding
                             NRC-proposed generic backfit issues. Specifically, the CRGR was tasked
                             to control the number and nature of NRC-imposed generic backfit
                             requirements by assuring that agency actions were appropriate so as not
                             to impose unnecessary burden on NRC’s staff and licensees.


                             Per its Charter, to ensure that the staff properly identified and justified
                             proposed generic backfits, the CRGR is to review, among other things,7
                             new and revised regulatory requirements, generic correspondence, and
                             regulatory guides8 related to nuclear reactors and selected nuclear
                             materials and fuel cycle facilities. The Charter further states that a formal
                             CRGR review is to be “the ultimate check in NRC’s backfit management to
                                                            
7
  The CRGR will also review selected NRC staff guidance related to licensing, inspection, assessment, and
enforcement.
8
  Except those requiring immediate action by the licensing office because they may involve adequate protection
issues.  


                                                               4
                                        Audit of the Committee to Review Generic Requirements 



    ensure that the internal backfit control processes work” before imposing
    changes on NRC’s licensees. According to the previous CRGR Chairman
    and current staff, a formal CRGR review involves the full committee
    reviewing, meeting, and voting on submitted backfit issues.


    Additionally, the Charter states that the committee’s primary
    responsibilities include recommending to the EDO either the approval or
    disapproval of proposed generic actions, guiding and assisting the
    program offices in implementing the Commission's backfit policy, and
    reviewing NRC's administrative generic backfit controls to determine if the
    controls are sufficient and the staff guidance is comprehensive and clear.


    The CRGR No Longer Functions As Originally Intended, Although the
    Requirement To Review for Generic Backfits Remains


    The CRGR no longer functions as originally intended with respect to
    generic backfit reviews. Although NRC must still ensure that generic
    backfits are appropriately justified based on regulations and policy, the
    CRGR no longer performs the central role in this process.

           CRGR No Longer Functions As Originally Intended

    As originally intended, the CRGR served for many years as NRC’s central
    control point for reviewing program office proposals to make approval or
    disapproval recommendations of generic backfit actions to the EDO.
    However, since the 1990s, the committee has not functioned in the same
    manner. [Appendix B reflects a timeline of CRGR’s evolving role.]

    During its initial years, the CRGR members and a technical support staff
    served as the central reviewers of all generic action proposals submitted
    to them by program offices. Specifically, the CRGR members, with
    assistance from six full-time senior technical experts, formally reviewed all
    program office proposals to determine the completeness, adequacy, and
    sufficiency of the analysis, details, and technical data provided by the staff
    in support of the proposed requirements changes. The CRGR then
    submitted written statements to the EDO justifying the findings of its formal
    reviews. These statements provided a clear foundation of the CRGR’s
    recommendations to the presiding EDO to approve, disapprove, or
    suggest modifications to the submitted proposals. Additionally, to assist
    the program offices with implementing the backfit policy, the CRGR
    reviewed the sufficiency of the staff’s cost-benefit analyses and
    probabilistic risk analyses when such analyses were required by the
    agency’s backfit policy.



                                   5
                                                                   Audit of the Committee to Review Generic Requirements 




                             The current CRGR’s functions differ significantly from the past. First, the
                             CRGR no longer serves as the central control point for conducting
                             technical reviews of all program office proposals to support
                             recommendations to the EDO. Instead, the primary responsibility for
                             ensuring proper backfit considerations belongs to each sponsoring office9
                             which, in conjunction with OGC and other program offices as necessary,
                             conducts in-depth backfit technical and legal reviews. The proposals are
                             submitted to the CRGR for review only after these multi-office reviews are
                             completed.

                             Furthermore, the majority of all CRGR reviews are now informal, although
                             the Charter does not provide for this type of review. Informal reviews do
                             not result in a recommendation to the EDO that is based on a formal
                             committee review. Instead, informal reviews of the program office
                             proposals referenced in Figure 1 consisted of the CRGR Chairman and
                             support staff reviewing the submittals, summarizing the issues, and
                             determining if a formal review was needed. Of the 25 program office
                             proposals submitted between June 1, 2007, and May 31, 2008, only three
                             were considered by the CRGR members for formal review.10 Informal
                             reviews of the remaining 22 submittals resulted in 21 proposals waived
                             with or without comment and one deferred. Per the CRGR support staff,
                             waived means that the CRGR Chairman’s informal review determined
                             there was no need for a formal CRGR review, and deferred means that
                             the CRGR will reserve comment on the proposal until after the public
                             comment period expires.




                                                            
9
  NRC managers noted that although each sponsoring office has always been responsible for assuring compliance
with applicable backfitting requirements, and OGC has always been involved in reviewing agency proposals, the
offices are now more effective and robust in their plant-specific and generic backfitting compliance activities. 
10
      The three formal reviews each subsequently resulted in a CRGR endorsement.


                                                               6
                                                                                                Audit of the Committee to Review Generic Requirements 




                                                                            Figure 1
                                                                 CRGR Review Summary 2004-2008

                                              40
                                                                        34
                                              35
                                              30       26
                             Items Reviewed


                                              25                                                         21          Formal Review
                                                                                       18
                                              20                                                                     Informal/Waived
                                              15            10               11                                      Deferred
                                                                    9
                                              10   7
                                                                                   5        4        3
                                              5                                                               1
                                              0
                                                   04-05             05-06          06-07             07-08
                                                                             Years
                                                                        (June 1 - May 31)

                                                                                                                                             
                                                                    Source: OIG-generated

                             In addition to the infrequent use of formal reviews, current CRGR reviews,
                             both informal and formal, are now more procedural than substantive.
                             Recent CRGR Chairmen said that proposals were reviewed to ensure that
                             the staff had properly complied with the process requirements of the
                             backfit rule but not to assess the technical bases of the proposals. In
                             other words, a review would typically ensure only that the required
                             supporting documents were provided and included an appropriate
                             justification for why the proposal does or does not represent a backfit.

                             Additionally, the CRGR does not effectively follow up on its own
                             recommendations to improve the agency’s generic backfit process. One
                             of the CRGR’s responsibilities is to assess the NRC’s administrative
                             controls over backfits. To this end, the CRGR’s Charter directs the
                             committee to periodically review NRC’s control mechanisms in place for
                             backfit reviews. In CRGR’s last assessment,11 performed in 2003, the
                             committee identified several areas related to the agency’s backfit process
                             that needed improvement and made recommendations to address the
                             weaknesses. However, the CRGR did not retain followup responsibility for
                             all of its recommendations and the committee’s support staff could not
                             provide documentation that explicitly states the status of the CRGR’s
                             recommendations.



                                                            
11
  The CRGR’s next 5-year assessment was due in 2008. However, with Commission approval, the CRGR put the
next assessment into abeyance pending receipt of OIG’s audit report.  


                                                                                       7
                                        Audit of the Committee to Review Generic Requirements 




          The Requirement To Review Generic Backfits Remains

    The requirement to review program office proposals for backfit
    implications remains. Specifically, there is still a need for the agency to
    review proposed generic changes or modifications to ensure that any
    potential backfits are appropriately justified based on NRC regulations and
    policy prior to imposition on NRC’s licensees. Consistent with the intent of
    the regulations to avoid placing unnecessary burden on NRC licensees,
    agency managers and external stakeholders said that the agency’s backfit
    reviews of generic proposals are necessary to ensure backfits are
    appropriately characterized and warranted. Additionally, according to a
    former EDO, having a high-level, disciplined backfit review process
    provides another level of support for NRC decisions and actions.


    Generic Backfit Reviews Have Evolved Without a Defined
    Agencywide Process

    The CRGR no longer performs the central role in the backfit review
    process because the agency’s processes have evolved. Currently, other
    offices focus more effort on backfit compliance and interoffice
    communications on backfitting issues. This evolution, in effect, resulted in
    these offices assuming some of the CRGR’s duties. In contrast to a time
    when the CRGR served as the central agency control point for reviewing
    proposed generic backfits, the agency now relies on frequent agency
    office interactions, early stakeholder involvement in the review process,
    and multiple sources of backfit guidance to control NRC-imposed backfits.
    However, the agency has not developed overarching, agencywide
    guidance that describes its current backfit review process or reassessed
    what, if any, role the CRGR should play in the current process.

    Frequent Agency Office Interactions

    In the 1980s, the agency’s program offices did not commonly
    communicate information about generic action proposals under
    development to other offices or submit them for multiple office reviews.
    This lack of interaction occasionally resulted in unintended conflicts with
    the proposed actions of another NRC office. Therefore, the CRGR role
    was important as a central point of contact in the backfit review process
    during that period. Today, in contrast, interoffice sharing of information
    during the development process of proposed actions is a common
    practice. For example, the agency’s senior managers routinely meet to
    discuss ongoing agency actions and, according to the agency, the
    interoffice communications regarding backfitting issues have also become
    more effective and robust. Additionally, other organizations such as the
    Office of Nuclear Regulatory Research’s Generic Issue Review Panel and

                                  8
                                                                   Audit of the Committee to Review Generic Requirements 



                             the Office of Nuclear Reactor Regulation’s Generic Communication and
                             Power Uprate Branch now exist to perform reviews of generic issues for
                             backfit implications. As a matter of function, both groups review
                             documents prepared by their own offices, as well as documents
                             sponsored by other agency offices.

                             Further, a headquarters legal review early in the agency’s backfit review
                             process is now considered a key control. NRC requires its program
                             offices to obtain an OGC review of draft generic proposals before issuing
                             the drafts for stakeholder comment. This legal review is intended to
                             ensure that the staff’s proposals either include the required justification
                             and analysis for a proposed backfit or the appropriate reason why the
                             proposal does not represent a backfit.


                             Thus, prior to CRGR’s involvement in the process, these multiple program
                             office technical reviews, along with OGC’s legal role in the process,
                             enhance the agency’s ability to properly identify and justify backfits in
                             accordance with its requirements. For example, the Commission recently
                             approved the staff’s request to remove the CRGR from the review of
                             current and future proposals pertaining to new rules.12 In justifying this
                             vote, the NRC Chairman cited an extensive agency concurrence process
                             that typically allows all agency offices to concur prior to the CRGR review
                             and provides sufficient opportunity for the agency's experts to identify any
                             potential backfit issues.
                             Early Stakeholder Involvement
                             Early stakeholder involvement helps to highlight previously unidentified
                             backfit issues. As a result of NRC’s efforts to be more open and
                             transparent in its processes, external stakeholders such as industry
                             representatives and the general public are now routinely afforded an
                             opportunity through Federal Register notices to comment on many NRC
                             draft documents. As noted in a 1986 revision to the CRGR’s Charter, staff
                             may interact with the public to obtain preliminary information on proposed
                             actions and the CRGR could seek additional public comments, if desired.
                             In contrast, by 2001, the agency had documented the value of early public
                             involvement and directed staff to address which public participation




                                                            
12
  Commission Staff Requirements Memorandum - SECY-07-0134 - Evaluation of the Overall Effectiveness of the
Rulemaking Process Improvement Implementation Plan, dated October 25, 2007. 


                                                               9
                                                                    Audit of the Committee to Review Generic Requirements 




                             techniques would be included in their proposed actions. Furthermore,
                             according to senior NRC managers, publishing documents in draft form for
                             public comment serves as a valuable control mechanism for identifying
                             potential backfit issues.


                             Multiple Sources of Backfit Guidance

                             Over the past 8 years, the agency has developed various guidance
                             documents, including a number of agencywide management directives,13
                             to assist staff in identifying backfit issues when developing generic
                             proposals. In addition, individual program offices developed and
                             implemented guidance on internal backfit reviews specific to their areas of
                             responsibility.14 (See Appendix C for a timeline for the evolution of agency
                             generic backfit reviews, including additional guidance sources.)



                             NRC Has Not Reassessed CRGR Role or Developed Overarching
                             Guidance

                             Although the agency’s processes have evolved for evaluating program
                             office proposals for backfit implications, the agency has not developed
                             overarching, agencywide guidance that describes the current process or
                             reassessed what, if any, role the CRGR should play in the current
                             process.

                             In 1996, the Commission was asked, via SECY 96-032,15 to approve a
                             major revision to the CRGR Charter to reflect changes in policy and
                             committee practices. One revised practice included for approval was the
                             CRGR’s move towards more frequent use of informal reviews in lieu of the
                             once-standard formal committee reviews. As proposed, the CRGR
                             support staff would review proposals submitted by NRC program offices
                             and make recommendations to the committee members on the need for
                             further review. The Commission responded to SECY 96-032 in a Staff
                                                            
13
  Management Directive (MD) 6.3, The Rulemaking Process, dated July 31, 2001, revised June 2005; MD 6.4,
Generic Issues Program, dated December 2001, revised July 2005; and MD 8.4, Management of Facility-specific
Backfitting and Information Collection, dated October 28, 2004.      
14
  The Office of Nuclear Reactor Regulation issued office instructions LIC-400, Procedures For Controlling the
Development of New and Revised Generic Requirements For Power Reactor Licensees; and LIC-202, Managing
Plant-Specific Backfits and 50.54(f) Information Requests. Similarly, the Office of Nuclear Material Safety and
Safeguards developed Policy and Procedures Letters (P&PL)1-82, 10 CFR Part 70, Backfit Guidance, and 1-84, 10
CFR Part 72, Backfit Guidance.
15
  SECY-96-032, Charter of the Committee To Review Generic Requirements (CRGR) – (Proposed Revision 6),
dated February 9, 1996.


                                                               10
                                       Audit of the Committee to Review Generic Requirements 



    Requirements Memorandum; however, the response focused on other
    matters and did not directly address the request to incorporate the more
    frequent use of informal reviews into the revised Charter. Even though the
    Commission did not issue any other communication regarding this
    practice, the committee instituted a process where the majority of
    submitted program office proposals now receive only an informal review.

    The informal review process varies depending on the presiding committee
    Chairman, but proposals are primarily reviewed by the CRGR Chairman
    and the CRGR support person. According to the new CRGR Chairman,
    his informal process includes providing a copy of the proposals to the
    other CRGR members. If the CRGR Chairman does not recommend a
    formal review, no further review is performed. However, if any committee
    member disagrees with the CRGR Chairman’s determination, the need for
    a formal review is reconsidered.

    Although the agency’s processes for reviewing program office proposals
    for backfit implications have evolved, NRC has not formally reviewed and
    documented its current process or revisited the role of the CRGR to
    ensure that controls are in place to verify that generic backfits are
    appropriately justified.


    Evolution of Agency Backfit Reviews Raises Questions About
    CRGR’s Value
    The CRGR does not add its full intended value as originally envisioned for
    backfit review and stakeholders do not fully understand the NRC’s backfit
    review processes, including the CRGR’s role. Moreover, without
    reassessing and documenting the current backfit review process, the
    agency cannot be assured it is taking appropriate and consistent action
    with regard to backfit reviews and is taking the necessary steps to prevent
    unnecessary regulatory burden for licensees.
    According to the former EDO, if the agency does not adapt to meet the
    evolving agency backfit controls processes, the NRC may not be utilizing
    the staff to its full value. Because the agency’s backfit review processes
    have evolved, the CRGR no longer serves as the agency’s central control
    on backfit issues thereby diminishing the committee’s value as an advisor
    to the EDO and staff. For example, the CRGR’s frequent use of informal
    reviews, which are outside the scope of its Charter and typically do not
    result in a formal committee review, raises questions regarding the value
    of CRGR recommendations to the EDO on proposed backfit actions.
    Furthermore, both NRC staff and external stakeholders stated that they do
    not fully understand what the CRGR does, including the committee’s
    involvement in the agency’s backfit review process. For example, some
    agency managers thought that the CRGR still performed many of the

                                 11
                                                      Audit of the Committee to Review Generic Requirements 



          functions prescribed in its 1999 Charter, such as conducting formal,
          technical backfit reviews of draft generic proposals, and were unaware of
          the CRGR’s predominant use of informal reviews. In particular, the
          previous EDO assumed that recommendations received from the CRGR,
          whether as a result of a formal or informal review, were based on at least
          a minimal review of the submitted proposals by the full committee. His
          assumption that the full committee reviewed each proposal in some
          manner prior to his receiving a positive CRGR recommendation made his
          approval of program office proposals more “comfortable.” In fact, EDO
          decisions rendered on more than 80 percent of the potential generic
          backfits from mid-2004 through mid-2008 were not based on a formal
          committee review as expected (see Figure 2).

                                          Figure 2
                                       CRGR Reviews
                               June 1, 2004 - May 31, 2008
                                    Average Per Year

                     16% 




                                                                     Informal Review 
                                                                     Formal Review 


                                       84%


                                                                                                  

    source:   OIG-generated 



          Additionally, external stakeholders expressed confusion on how NRC
          backfit decisions are made or who actually makes them. Industry
          representatives commented on the lack of transparency in the agency’s
          backfit decisions, including the lack of visibility into what happens inside
          the NRC with respect to how the CRGR deliberates and/or reaches its
          conclusions. Specifically, they were skeptical that CRGR undertakes a
          rigorous or consistent review of submitted proposals since the committee
          does not publicly provide any detailed information as to how it arrived at its
          decisions. Absent a well-defined and well-communicated agencywide
          backfit review process, there is a real potential for stakeholders to lose
          confidence in the NRC’s ability to ensure that backfits are imposed
          according to the relevant rules and regulations.




                                              12
                                            Audit of the Committee to Review Generic Requirements 



         Recommendations:
         OIG recommends that the Executive Director for Operations:
         1. Develop, document, implement, and communicate an agencywide
            process for reviewing backfit issues to ensure that generic backfits are
            appropriately justified based on NRC regulations and policy.
         2. Determine what, if any, role the CRGR should perform in NRC’s backfit
            review process, to include whether the CRGR function is still needed.



IV.   AGENCY COMMENTS

         At a January 7, 2009, exit conference, NRC senior managers, including
         CRGR members, agreed with the report’s finding and recommendations.
         The agency subsequently decided not to provide formal comments. This
         final report incorporates informal comments provided by the agency, as
         appropriate.




                                       13
                        Audit of the Committee to Review Generic Requirements 




    [Page intentionally left blank]




                  14
                                         Audit of the Committee to Review Generic Requirements 


                                                                                 Appendix A

SCOPE AND METHODOLOGY

       This audit was initiated in response to NRC Commission interest. The
       objectives of this audit were to determine if the CRGR (1) adds value for
       EDO decisionmaking purposes and (2) if the CRGR’s function is still
       needed. To address the audit objectives, OIG reviewed the CRGR’s
       functions and how the CRGR fits into NRC’s overall backfit review
       processes. Additionally, OIG analyzed program documents, and reviewed
       relevant management controls, related documentation from internal and
       external sources, and Federal guidance. Some of the key documents
       reviewed include:
       ¾ Code of Federal Regulations, Title 10, Part 50.109 and Part 76.76.
       ¾ The CRGR Charter, Revision 1 through Revision 7.
       ¾ NUREG-1409, Backfitting Guidelines.
       ¾ The General Accounting Office, Standards for Internal Control in the
         Federal Government.
       ¾ Periodic Assessments of the Activities of the CRGR dated 2004
         through 2007.
       ¾ CRGR Report, NRC Administrative Controls Relating to Backfit, May
         2003.
       ¾ Management Directives
             o MD 6.3, The Rulemaking Process
             o MD 6.4, Generic Issues Program
             o MD 8.4, Management of Facility-specific Backfitting and
               Information Collection.

       ¾ Office of Nuclear Reactor Regulation’s Office Instructions LIC-202,
         LIC-400 and LIC-503, and Office of Nuclear Material Safety and
         Safeguards’ Office Instructions P&PLs 1-20, 1-82, and 1-84.
       Additionally, auditors attended an informal CRGR meeting and conducted
       interviews with agency and industry individuals, including:
       ¾ Former and present Executive Directors for Operations.
       ¾ Former and current CRGR Chairmen and members.
       ¾ NRC senior management and staff from:



                                    15
                                      Audit of the Committee to Review Generic Requirements 



          o Headquarters, Rockville, Maryland
          o Region II, Atlanta, Georgia.

    ¾ OGC members at NRC Headquarters.

    ¾ External stakeholders from:

          o The Union of Concerned Scientists
          o The Nuclear Energy Institute.

    OIG conducted this audit between May 2008 and August 2008 in
    accordance with generally accepted Government auditing standards.
    Those standards require that we plan and perform the audit to obtain
    sufficient, appropriate evidence to provide a reasonable basis for our
    findings and conclusions based on our audit objectives. We believe that
    the evidence obtained provides a reasonable basis for our findings and
    conclusions based on our audit objectives.
    Major contributors to this report are Sherri Miotla, Team Leader;
    Catherine Colleli, Audit Manager; Timothy Wilson, Management Analyst;
    and Andrea Ferkile, Management Analyst.




                                16
                                                        Audit of the Committee to Review Generic Requirements 


                                                                                                              Appendix B


                                    CRGR Evolutionary Timeline
                                           1981-2008


        1981                                               1999
       CRGR                               Office of Nuclear Regulatory Research                                2008
     established                                         provides                                         CRGR support staff
                             1984                                                                          budget 0.5 FTE
                                                     CRGR Chairman
                         CRGR support
                                                    and 1 support staff
                          staff 6 FTE
             1982                                                                         2007
            CRGR                                                                     CRGR removed
            Charter                                                               from draft rulemaking




    1980              1985              1990                 1995                      2000               2005           2009




               1984                            1991
      CRGR reviewed packages            Charter reduces
        for quantitative and               information                                                 2004-2008
           technical data               submitted to EDO                                         CRGR primarily conducts
                                                                       1996                         informal reviews
                                                               CRGR requested
                                                             use of informal reviews
                      Key
    Blue – CRGR composition

    Green – CRGR reviews

    Red – CRGR removal




                                               17
                         Audit of the Committee to Review Generic Requirements 




    [Page intentionally left blank.]




                  18
                                                      Audit of the Committee to Review Generic Requirements 


                                                                                                      Appendix C


                            Evolution of Agency Generic Backfit Reviews
                                              Timeline
                                             1981-2008



                         1986                                           2001                        2008
                    Agency staff                                  Agency calls for           Majority packages
                    may request                                  public comment in             reviewed by
        1981
                   public comment                                   rulemaking               public and OGC
       CRGR
                                                                                              before CRGR
     Established




    1980            1985              1990                  1995                 2000                2005          2009

                1988
            10 CFR 50.109
                                  1990                1994            2001               2003             2004
                               NUREG 1409         10 CFR 76.76       MD 6.4             LIC-503          LIC-202


                                                                                       2004               2004
                                                                      2001           P&PL 1-82           LIC-400
                                                                     MD 6.3
                                                                                       2004               2004
                                                                                     P&PL 1-84           MD 8.4




                     Key
    Blue – Agency guidance
    Green – CRGR establishment
    Orange – Public/OGC involvement




                                             19
